i
TABLE OF CONTENTS
Page
1.

California Commission on Peace Officer
Standards and Training, Learning Domain
16: Search and Seizure, Chapter 3: Warrantless Searches and Seizures ................... App. 1

2.

El Segundo Police Department Policy Manual, Policy 151.55 – Supervisor’s Responsibility and Control [Vehicle Pursuits] ......... App. 10

3.

Hawthorne Police Department Policy Manual,
Policies 300.5 – Reporting the Use of Force
and 300.6 – Medical Consideration ........... App. 17

4.

La Verne Police Department Policy Manual,
Policy 429 – Foot Pursuits .......................... App. 25

5.

Long Beach Police Department Policy Manual, Policy 7.1.7 – Vehicle Pursuits ............ App. 34

6.

Los Angeles Police Department Policy Manual, Volume 3, Policy 579.15 – Objectives of
Body Worn Video ........................................ App. 48

7.

Torrance Police Department Policy Manual,
Policy 307 – Vehicle Pursuits ..................... App. 68

EXHIBIT 1
California Commission on
Peace Officer Standards and Training
Learning Domain 16: Search and Seizure
Chapter 3: Warrantless Searches and Seizures
Exigent Circumstance Searches

App. 1
CALIFORNIA COMMISSION ON PEACE OFFICER
STANDARDS AND TRAINING
Basic Course
Workbook Series
Student Materials
Learning Domain 16
Search and Seizure
Version 4.8
THE MISSION OF THE CALIFORNIA COMMISSION
ON PEACE OFFICER STANDARDS AND
TRAINING IS TO CONTINUALLY ENHANCE
THE PROFESSIONALISM OF CALIFORNIA LAW
ENFORCEMENT IN SERVING ITS COMMUNITIES
Basic Course Workbook Series
Student Materials
Learning Domain 16
Search and Seizure
Version 4.8
© Copyright 2006
California Commission on Peace Officer
Standards and Training (POST)
All rights reserved.
Published 1998
Revised June 2001
Revised January 2006
Revised July 2008
Correction June 2017
This publication may not be reproduced, in whole or
in part, in any form or by any means electronic or

App. 2
mechanical or by any information storage and retrieval
system now known or hereafter invented, without prior
written permission of the California Commission on
Peace Officer Standards and Training, with the following exception:
California law enforcement or dispatch agencies
in the POST program, POST-certified training
presenters, and presenters and students of the
California basic course instructional system are
allowed to copy this publication for non-commercial
use.
All other individuals, private businesses and corporations, public and private agencies and colleges, professional associations, and non-POST law enforcement
agencies in-state or out-of-state may purchase copies
of this publication, at cost, from POST as listed below:
From POST’s Web Site:
www.post.ca.gov
Go to Ordering Student Workbooks
Exigent Circumstance Searches
Introduction Peace officers may lawfully enter an
area in which an individual has a reasonable expectation of privacy, when
there is a compelling need for official
action and no time to secure a warrant.

App. 3
Necessary
conditions

Exigent circumstances means an
emergency situation requiring swift
action to prevent:
• imminent danger to a person’s life
or safety
• serious damage to property
• imminent escape of a suspect
• imminent destruction or removal
of evidence
NOTE: Once inside, peace officers may
do whatever is necessary to resolve the emergency – nothing
more. Once the emergency has
dissipated (no longer any imminent danger to life, property, etc.), a warrant may be
needed for further searching.
NOTE: For additional information or
exigent circumstance searches,
refer to LD 9: Crimes Against
Children.

Scope
of a
search

Under exigent circumstances, the primary purpose of the officer’s entry is
to attend to the emergency situation.
After entering the premises, officers
may conduct a search only if it is

App. 4
reasonable to believe a search is necessary to secure the emergency.
Officers who are conducting a lawful
search based on exigent circumstances
may seize any item in plain view if
there is probable cause to believe the
item is contraband or evidence of a
crime.
Exception
to knock
and notice

When exigent circumstances exist,
peace officers are normally not required to comply with knock and notice procedures before entering.

Imminent
danger to
life

If an officer reasonably believes a person (victim or other person), inside an
area that would be considered private
property, may be injured or ill and in
immediate need of help, the officer may
enter the property without a warrant.
The following table illustrates a number of situations where there may be
an imminent danger to life.
Emergency

A peace officer
may enter without a warrant if
the officer reasonably believes
that . . .

Sick or injured
person

there is a medical
emergency where

App. 5
a person may be
incapacitated.

Imminent
danger to
property

Child abuse

a child inside the
premises is presently being physically abused, or a
child is in immediate need of protection.

Violent assault

there are people
inside the residence
who constitute an
imminent and serious threat to themselves or others.

Domestic
violence

entry is necessary
to protect a victim
by preventing ongoing or additional
violence.

If an officer reasonably believes there
is a need to enter a private area in order to protect the property of the
owner or occupant, the officer may enter without a warrant.
The following table illustrates situations where there may be an imminent danger to property.

App. 6

Imminent
escape

Emergency

A peace officer
may enter without
a war-rant if the
officer reasonably
believes that . . .

Burglary

the premises are
presently
being
burglarized.

Other
emergencies

the premises are
on fire, or there
are
dangerous
chemicals or explosives on the
premises
which
pose a danger to
people or property.

It is lawful for peace officers to enter
private property without a warrant in
order to prevent the escape of a suspect, especially if the suspect is armed
and dangerous or has just committed
a violent felony.
The following table describes two
types of exigent circumstance pursuits.
Type of Pursuit A warrantless
entry is permitted if . . .
Hot pursuit

officers attempt to
detain or arrest

App. 7
the suspect in a
public place, but
the suspect flees
inside a private
area.
Fresh pursuit

Destruction
of evidence

there is no physical chase, but officers are quickly
responding to information
concerning
the
suspect’s whereabouts, and the officers reasonably
believe the suspect’s escape is
imminent.

Peace officers may enter premises
without a warrant or consent when
there is immediate danger of destruction or removal of crime-related evidence.
NOTE: A mere suspicion that evidence will be destroyed does
not amount to exigent circumstances. There must be
specific facts that evidence
will likely be destroyed or removed without intervention.

App. 8
Re-entry

Following the exigent circumstance,
peace officers must vacate the premises within a reasonable amount of
time and may not reenter unless they
obtain a search warrant or consent.

Creating an
exigency

Peace officers may not use exigent circumstances as an excuse for a warrantless entry if they have created the
emergency unnecessarily by their own
conduct.

Examples

Two officers were investigating a
truck hijacking that occurred earlier
in the day. When the officers arrested
three of the known suspects outside of
a residence, one of the suspects told
the officers that the fourth suspect
was inside the home. Entry into the
residence by officers, without a warrant, was lawful to prevent the escape
of the fourth suspect.
A commercial property was found unlocked and unattended. The officer entered the property to locate the name
and phone number of the owner and
to see if there were any signs of someone inside. While inside, the officer
discovered contraband in plain view.
The entry was legal because the

App. 9
officer was attempting to prevent
damage or further damage to the
property.
While responding to a neighbor’s complaint of strange noises coming from
a nearby apartment, officers found a
trail of fresh blood in the hallway
leading to the apartment door. When
the officers started to announce themselves, they heard vague moaning
sounds from inside. The officers reasonably suspected that someone inside the apartment was in need of
immediate medical attention and entered the property without a warrant
or consent.

EXHIBIT 2
El Segundo Police Department Policy Manual
Policy 151.55: Supervisor’s Responsibility
and Control [Vehicle Pursuits]

App. 10
*

*

*

when a four-wheeled marked police
unit has joined the pursuit.

C.

3.

K-9 Units: In the event a pursuit is initiated by an officer operating a K-9
unit, the pursuing K-9 officer shall
relinquish primary and secondary responsibilities in the pursuit when a
four-wheeled marked police unit has
joined the pursuit. The K-9 unit should
continue as a third pursuing unit to
assist at its termination point.

4.

Officers shall not become involved in
a vehicular pursuit while transporting a prisoner.

Secondary or back-up unit, defined: A
unit which may take over the broadcast if
requested by the primary unit and takes
over primary responsibility if the primary
unit becomes disabled. The number of
units involved in the pursuit will vary
with the circumstances and be determined by:
1.

Nature of crime.

2.

Number of suspects.

3.

Whether participating units are one
or two-man cars.

4.

Other clear and articulated facts that
would warrant the increased hazard.

App. 11
A pursuit shall normally consist of no
more than two (2) units: The primary unit
and the secondary or back-up unit. Either
unit may request additional units to join
the pursuit if it appears that the officers
in the primary and secondary pursuit
vehicles would not be sufficient to safely
affect the arrest of the suspect(s). If available, a K-9 unit should join in a pursuit to
assist at its termination point.
The factors set forth in section 151.45(A)
and (B) should also be considered in determining whether additional units should
be deployed. At no time shall any units
become involved in the pursuit without
promptly notifying the dispatcher, via
voice radio, that they are entering the
pursuit. The ultimate authority to assign
additional pursuit units rests with the
Field Sergeant or Watch Commander. Officers in all other units shall stay out of
the pursuit, but remain alert to its progress and location.
1.

Responsibilities of the secondary pursuit unit shall be to:
a.

Assist the primary unit in maintaining contact with the pursued
vehicle.

b.

Maintain a safe distance behind
the primary unit.

c.

Take over communications responsibility with dispatch, relieving

App. 12
the primary unit of that responsibility if necessary.
d.

Assist the primary unit in making arrest(s) and controlling the
situation at the successful termination of the pursuit.

e.

Avoid passing or taking a position in front of the primary unit
unless requested to do so by the
primary unit or instructed to
do so by the Field Sergeant or
Watch Commander. If this occurs, the roles of the primary and
secondary units will be reversed.

f.

Take over as primary unit in the
event the existing primary unit
drops out of the pursuit due to
mechanical or equipment failure.

g.

Cease pursuit and stop and render aid to the primary unit in the
event the primary unit is involved in a major collision.

If the pursuit was initiated due to a felony involving serious bodily injury or death, the officer of the secondary unit may continue to
pursue and notify dispatch of the accident.

App. 13
151.55 SUPERVISOR’S RESPONSIBILITY AND CONTROL:
A.

Field Sergeant Responsibilities. The responsibilities of the Field Sergeant may
be to:
1.

Initiate pursuit. In incidents where a
supervisor is the primary or secondary unit, it is recommended the supervisor relinquish the pursuit to
other units in order to maintain supervisory responsibilities.

2.

Allow pursuits to continue.

3.

Monitoring pursuits.

4.

Ensure that only authorized units
are involved in the pursuit or if necessary, authorizing additional unit
participation.

5.

Authorizing outside agency participation and/or intervention.

6.

Assess whether the pursuit should
continue using the factors listed in
Section 151.45 of this policy.

7.

Assign other units to assist in blocking traffic, clearing intersections, etc.,
as circumstances dictate.

8.

Coordinating air support.

9.

Authorize Physical intervention.

10. Proceed to the general area of the
pursuit or when possible, engage in

App. 14
the pursuit to provide on-scene supervision.
11. Terminate the pursuit when, in his/
her opinion, it is unsafe or no longer
necessary, as more fully set forth in
section 151.45 of this policy.
12. Proceed to the termination point of a
successfully completed pursuit and
supervise the scene.
13. Complete the ESPD Post-Pursuit Critique Form, which includes an analysis of the pursuit tactics, enforcement
tactics at the termination point and
any further recommendations. The
analysis should examine compliance
with Department policy, legal issues,
and evaluation of any force used.
14. Completion of the CHP 187A Form.
This form is available on-line at http://
www.chp.ca.gov/publications/index.html
151.57 WATCH COMMANDER’S RESPONSIBILITIES.
The Watch Commander shall be in overall
command of the operation. This command responsibility shall include all Department
units working within the City.
A.

The Watch Commander shall respond to
the Watch Commander’s office and immediately take command. In order to
maintain operational command and control, the Watch Commander shall establish “hot line” communications with the

App. 15
Communications Center. The Communications Center shall immediately and directly carry out the requirements of the
Watch Commander.
B.

If necessary, to assert operational control,
the Watch Commander may communicate with field units via station transmitting capabilities.

C.

Should the Watch Commander be in the
field during a pursuit, he shall accomplish the requirements of his duties by
use of his car radio.

D. The Watch Commander shall decide based
upon his assessment of all information received whether the continuation or termination of the pursuit is warranted. In the
absence of prompt information from the
primary or secondary units, he shall order termination of the pursuit.
151.60 PURSUIT DRIVING TACTICS:
Officers attempting to stop a vehicle shall be
within close proximity to the violator’s vehicle
before activating the red lights and attempting the stop.
A. Units should not parallel a pursuit unless
they are attempting to use a spike strip
or attempting to block intersections and
these actions are approved by the Field
Sergeant or Watch Commander. Units
paralleling a pursuit shall exercise extreme caution and good judgment in the

App. 16
operation of the police vehicles so as not
to present any undue threat of damage or
injury. The paralleling unit shall not join
or interfere with the pursuit and shall
curtail all pursuit-related activity at the
boundary of its assigned area.
B.

Roadblocks will only be used as a last resort, when all other means and efforts to
stop a person fleeing in a motor vehicle
have failed and the violator constitutes a
continuing and major threat to the safety
of others.
1.

Any roadblock employed in a pursuit
situation shall be approved and controlled by the Field Sergeant or Watch
Commander who is directing the pursuit.

2.

A reasonably effective advance warning system must be deployed to alert
motorists (including the fleeing person) of the approaching roadblock.
This warning system may consist of
the overhead emergency lights of a
marked police vehicle and must become effective not later than at the
time the roadblock is constructed.

3.

Adequate distance will be allowed for
the fleeing vehicle to come to a safe
stop without colliding with the roadblock.

EXHIBIT 3
Hawthorne Police Department Policy Manual
Policy 300.5: Reporting the Use of Force
Policy 300.6: Medical Consideration
Policy 300.7: Supervisor Responsibility

App. 17
Hawthorne Police Department
Policy
Use of Force
300.4

DEADLY FORCE APPLICATIONS

If an objectively reasonable officer would consider it
safe and feasible to do so under the totality of the circumstances, officers should evaluate the use of other
reasonably available resources and techniques when
determining whether to use deadly force. The use of
deadly force is only justified in the following circumstances (Penal Code § 835a):
(a) An officer may use deadly force to protect him/
herself or others from what he/she reasonably
believes is an imminent threat of death or serious bodily injury to the officer or another
person.
(b) An officer may use deadly force to apprehend
a fleeing person for any felony that threatened
or resulted in death or serious bodily injury, if
the officer reasonably believes that the person
will cause death or serious bodily injury to another unless immediately apprehended. Where
feasible, the officer shall, prior to the use of
force, make reasonable efforts to identify themselves as a peace officer and to warn that
deadly force may be used, unless the officer
has objectively reasonable grounds to believe
the person is aware of those facts.
Officers shall not use deadly force against a person
based on the danger that person poses to him/herself,
if an objectively reasonable officer would believe the

App. 18
person does not pose an imminent threat of death or
serious bodily injury to the officer or to another person
(Penal Code § 835a).
An “imminent” threat of death or serious bodily injury
exists when, based on the totality of the circumstances,
a reasonable officer in the same situation would believe that a person has the present ability, opportunity,
and apparent intent to immediately cause death or serious bodily injury to the officer or another person. An
officer’s subjective fear of future harm alone is insufficient as an imminent threat. An imminent threat is
one that from appearances is reasonably believed to require instant attention (Penal Code § 835a).
300.4.1 SHOOTING AT OR FROM MOVING VEHICLES
Shots fired at or from a moving vehicle are rarely effective. Officers should move out of the path of an approaching vehicle instead of discharging their firearm
at the vehicle or any of its occupants. An officer should
only discharge a firearm at a moving vehicle or its occupants when the officer reasonably believes there are
no other reasonable means available to avert the
threat of the vehicle, or if deadly force other than the
vehicle is directed at the officer or others.
Officers should not shoot at any part of a vehicle in an
attempt to disable the vehicle.

App. 19
300.5

REPORTING THE USE OF FORCE

Any use of force by a member of this department shall
be documented promptly, completely and accurately in
an appropriate report, depending on the nature of the
incident. The officer should articulate the factors perceived and why he/she believed the use of force was
reasonable under the circumstances. To collect data for
purposes of training, resource allocation, analysis and
related purposes, the Department may require the
completion of additional report forms, as specified in
department policy, procedure or law.
300.5.1 NOTIFICATION TO SUPERVISORS
Supervisory notification shall be made as soon as practicable following the application of force in any of the
following circumstances:
(a) The application caused a visible injury.
(b) The application would lead a reasonable officer to conclude that the individual may have
experienced more than momentary discomfort.
(c) The individual subjected to the force complained of injury or continuing pain.
(d) The individual indicates intent to pursue litigation.
(e) Any application of a TASER device or control
device.
(f ) Any application of a restraint device other
than handcuffs, shackles or belly chains.

App. 20
(g) The individual subjected to the force was rendered unconscious.
(h) An individual was struck or kicked.
(i)

An individual alleges any of the above has occurred.

300.5.2 REPORTING TO CALIFORNIA DEPARTMENT OF JUSTICE
Statistical data regarding all officer-involved shootings
and incidents involving use of force resulting in serious
bodily injury is to be reported to the California Department of Justice as required by Government Code
§ 12525.2. See the Records Bureau policy.
300.6

MEDICAL CONSIDERATION

Prior to booking or release, medical assistance shall be
obtained for any person who exhibits signs of physical
distress, who has sustained visible injury, expresses a
complaint of injury or continuing pain, or who was rendered unconscious. Any individual exhibiting signs of
physical distress after an encounter should be continuously monitored until he/she can be medically assessed.
Based upon the officer’s initial assessment of the nature and extent of the subject’s injuries, medical assistance may consist of examination by fire personnel,
paramedics, hospital staff or medical staff at the jail. If
any such individual refuses medical attention, such a
refusal shall be fully documented in related reports

App. 21
and, whenever practicable, should be witnessed by another officer and/or medical personnel. If a recording is
made of the contact or an interview with the individual, any refusal should be included in the recording, if
possible.
The on-scene supervisor or, if the on-scene supervisor
is not available, the primary handling officer shall ensure that any person providing medical care or receiving custody of a person following any use of force is
informed that the person was subjected to force. This
notification shall include a description of the force used
and any other circumstances the officer reasonably believes would be potential safety or medical risks to the
subject (e.g., prolonged struggle, extreme agitation, impaired respiration).
Persons who exhibit extreme agitation, violent irrational behavior accompanied by profuse sweating,
extraordinary strength beyond their physical characteristics and imperviousness to pain (sometimes called
“excited delirium”), or who require a protracted physical encounter with multiple officers to be brought under control, may be at an increased risk of sudden
death. Calls involving these persons should be considered medical emergencies. Officers who reasonably
suspect a medical emergency should request medical
assistance as soon as practicable and have medical personnel stage away if appropriate.

App. 22
300.7

SUPERVISOR RESPONSIBILITY

When a supervisor is able to respond to an incident in
which there has been a reported application of force,
the supervisor is expected to:
(a) Obtain the basic facts from the involved officers. Absent an allegation of misconduct or excessive force, this will be considered a routine
contact in the normal course of duties.
(b) Ensure that any injured parties are examined
and treated.
(c) When possible, separately obtain a recorded
interview with the subject upon whom force
was applied. If this interview is conducted
without the person having voluntarily waived
his/her Miranda rights, the following shall apply:
1.

The content of the interview should not
be summarized or included in any related
criminal charges.

2.

The fact that a recorded interview was
conducted should be documented in a
property or other report.

3.

The recording of the interview should be
distinctly marked for retention until all
potential for civil litigation has expired.

(d) Once any initial medical assessment has been
completed or first aid has been rendered, ensure that photographs have been taken of any
areas involving visible injury or complaint
of pain, as well as overall photographs of

App. 23
uninjured areas. These photographs should be
retained until all potential for civil litigation
has expired.
(e) Identify any witnesses not already included in
related reports.
(f ) Review and approve all related reports.
(g) Determine if there is any indication that the
subject may pursue civil litigation.
1.

If there is an indication of potential civil
litigation, the supervisor should complete
and route a notification of a potential
claim through the appropriate channels.

(h) Evaluate the circumstances surrounding the
incident and initiate an administrative investigation if there is a question of policy noncompliance or if for any reason further investigation may be appropriate.
In the event that a supervisor is unable to respond to
the scene of an incident involving the reported application of force, the supervisor is still expected to complete as many of the above items as circumstances
permit.
300.7.1 WATCH COMMANDER RESPONSIBILITY
The Watch Commander shall review each use of force
by any personnel within his/her command to ensure
compliance with this policy and to address any training issues.

App. 24
300.8

TRAINING

Officers will receive periodic training on this policy and
demonstrate their knowledge and understanding.
300.9

USE OF FORCE ANALYSIS

At least annually, the Patrol Bureau Commander
should prepare an analysis report on use of force incidents. The report should be submitted to the Chief of
Police. The report should not contain the names of officers, suspects or case numbers, and should include:
(a) The identification of any trends in the use of
force by members.
(b) Training needs recommendations.
(c) Equipment needs recommendations.
(d) Policy revision recommendations.

EXHIBIT 4
La Verne Police Department Policy Manual
Policy 429: Foot Pursuits

App. 25
Policy
429

La Verne Police
Department
La Verne PD
Policy Manual

Foot Pursuits
429.1

PURPOSE AND SCOPE

This policy provides guidelines to assist officers in
making the decision to initiate or continue the pursuit
of suspects on foot.
429.2

POLICY

It is the policy of this department that officers, when
deciding to initiate or continue a foot pursuit, continuously balance the objective of apprehending the
suspect with the risk and potential for injury to department members, the public or the suspect.
Officers are expected to act reasonably, based on the
totality of the circumstances.
429.3

DECISION TO PURSUE

The safety of department members and the public
should be the primary consideration when determining whether a foot pursuit should be initiated or continued. Officers must be mindful that immediate
apprehension of a suspect is rarely more important
than the safety of the public and department members.

App. 26
Officers may be justified in initiating a foot pursuit of
any individual the officer reasonably believes is about
to engage in, is engaging in or has engaged in criminal
activity. The decision to initiate or continue such a foot
pursuit, however, must be continuously re-evaluated in
light of the circumstances presented at the time.
Mere flight by a person who is not suspected of criminal activity shall not serve as justification for engaging
in an extended foot pursuit without the development
of reasonable suspicion regarding the individual’s involvement in criminal activity or being wanted by law
enforcement.
Deciding to initiate or continue a foot pursuit is a decision that an officer must make quickly and under
unpredictable and dynamic circumstances. It is recognized that foot pursuits may place department members and the public at significant risk. Therefore, no
officer or supervisor shall be criticized or disciplined
for deciding not to engage in a foot pursuit because of
the perceived risk involved.
If circumstances permit, surveillance and containment
are generally the safest tactics for apprehending fleeing persons. In deciding whether to initiate or continue
a foot pursuit, an officer should continuously consider
reasonable alternatives to a foot pursuit based upon
the circumstances and resources available, such as:
(a) Containment of the area.
(b) Saturation of the area with law enforcement
personnel, including assistance from other
agencies.

App. 27
(c) A canine search.
(d) Thermal imaging or other sensing technology.
(e) Air support.
(f ) Apprehension at another time when the identity of the suspect is known or there is information available that would likely allow for
later apprehension, and the need to immediately apprehend the suspect does not reasonably appear to outweigh the risk of continuing
the foot pursuit.
429.4

GENERAL GUIDELINES

When reasonably practicable, officers should consider
alternatives to engaging in or continuing a foot pursuit
when:
(a) Directed by a supervisor to terminate the foot
pursuit; such an order shall be considered
mandatory
(b) The officer is acting alone.
(c) Two or more officers become separated, lose
visual contact with one another, or obstacles
separate them to the degree that they cannot
immediately assist each other should a confrontation take place. In such circumstances,
it is generally recommended that a single officer keep the suspect in sight from a safe distance and coordinate the containment effort.
(d) The officer is unsure of his/her location and
direction of travel.

App. 28
(e) The officer is pursuing multiple suspects and
it is not reasonable to believe that the officer
would be able to control the suspect should a
confrontation occur.
(f ) The physical condition of the officer renders
him/her incapable of controlling the suspect if
apprehended.
(g) The officer loses radio contact with the Communications Officer or with assisting or backup
officers.
(h) The suspect enters a building, structure, confined space, isolated area or dense or difficult
terrain, and there are insufficient officers to
provide backup and containment. The primary officer should consider discontinuing the
foot pursuit and coordinating containment
pending the arrival of sufficient resources.
(i)

The officer becomes aware of unanticipated or
unforeseen circumstances that unreasonably
increase the risk to officers or the public.

(j)

The officer reasonably believes that the danger to the pursuing officers or public outweighs
the objective of immediate apprehension.

(k) The officer loses possession of his/her firearm
or other essential equipment.
(l)

The officer or a third party is injured during
the pursuit, requiring immediate assistance,
and there are no other emergency personnel
available to render assistance.

(m) The suspect’s location is no longer definitely
known.

App. 29
(n) The identity of the suspect is established or
other information exists that will allow for the
suspect’s apprehension at a later time, and
it reasonably appears that there is no immediate threat to department members or the
public if the suspect is not immediately apprehended.
(o) The officer’s ability to safely continue the pursuit is impaired by inclement weather, darkness or other environmental conditions.
429.5

RESPONSIBILITIES IN FOOT PURSUITS

429.5.1 INITIATING OFFICER RESPONSIBILITIES
Unless relieved by another officer or a supervisor, the
initiating officer shall be responsible for coordinating
the progress of the pursuit. When acting alone and
when practicable, the initiating officer should not attempt to overtake and confront the suspect but should
attempt to keep the suspect in sight until sufficient officers are present to safely apprehend the suspect.
Early communication of available information from
the involved officers is essential so that adequate resources can be coordinated and deployed to bring a foot
pursuit to a safe conclusion, Officers initiating a foot
pursuit should, at a minimum, broadcast the following
information as soon as it becomes practicable and
available:
(a) Location and direction of travel
(b) Call sign identifier

App. 30
(c) Reason for the foot pursuit, such as the crime
classification
(d) Number of suspects and description, to include name if known
(e) Whether the suspect is known or believed to
be armed with a dangerous weapon
Officers should be mindful that radio transmissions
made while running may be difficult to understand
and may need to be repeated.
Absent extenuating circumstances, any officer unable
to promptly and effectively broadcast this information
should terminate the foot pursuit. If the foot pursuit is
discontinued for any reason, immediate efforts for containment should be established and alternatives considered based upon the circumstances and available
resources.
When a foot pursuit terminates, the officer will notify
the Communications Officer of his/her location and
the status of the pursuit termination (e.g., suspect in
custody, lost sight of suspect), and will direct further
actions as reasonably appear necessary, to include requesting medical aid as needed for officers, suspects or
members of the public.
429.5.2 ASSISTING OFFICER RESPONSIBILITIES
Whenever any officer announces that he/she is engaged in a foot pursuit, all other officers should minimize non-essential radio traffic to permit the involved
officers maximum access to the radio frequency.

App. 31
429.5.3 SUPERVISOR RESPONSIBILITIES
Upon becoming aware of a foot pursuit, the supervisor
shall make every reasonable effort to ascertain sufficient information to direct responding resources and to
take command, control and coordination of the foot
pursuit. The supervisor should respond to the area
whenever possible; the supervisor does not, however,
need not be physically present to exercise control over
the foot pursuit. The supervisor shall continuously assess the situation in order to ensure the foot pursuit is
conducted within established department guidelines.
The supervisor shall terminate the foot pursuit when
the danger to pursuing officers or the public appears to
unreasonably outweigh the objective of immediate apprehension of the suspect.
Upon apprehension of the suspect, the supervisor shall
promptly proceed to the termination point to direct the
post-foot pursuit activity.
429.5.4 COMMUNICATIONS CENTER RESPONSIBILITIES
Upon notification or becoming aware that a foot pursuit is in progress, the Communications Officer is responsible for:
(a) Clearing the radio channel of non-emergency
traffic.
(b) Coordinating pursuit communications of the
involved officers.

App. 32
(c) Broadcasting pursuit updates as well as other
pertinent information as necessary.
(d) Ensuring that a field supervisor is notified of
the foot pursuit.
(e) Notifying and coordinating with other involved or affected agencies as practicable.
(f ) Notifying the Watch Commander as soon as
practicable.
(g) Assigning an incident number and logging all
pursuit activities.
429.6

REPORTING REQUIREMENTS

The initiating officer shall complete appropriate crime/
arrest reports documenting, at minimum:
(a) Date and time of the foot pursuit.
(b) Initial reason and circumstances surrounding
the foot pursuit.
(c) Course and approximate distance of the foot
pursuit.
(d) Alleged offenses.
(e) Involved vehicles and officers.
(f ) Whether a suspect was apprehended as well
as the means and methods used.
1.

Any use of force shall be reported and documented in compliance with the Use of
Force Policy.

(g) Arrestee information, if applicable.

App. 33
(h) Any injuries and/or medical treatment.
(i)

Any property or equipment damage.

(j) Name of the supervisor at the scene or who
handled the incident.
Assisting officers taking an active role in the apprehension of the suspect shall complete supplemental reports as necessary or as directed.
The supervisor reviewing the report will make a preliminary determination that the pursuit appears to be
in compliance with this policy or that additional review
and/or follow-up is warranted.
In any case in which a suspect is not apprehended and
there is insufficient information to support further investigation, a supervisor may authorize that the initiating officer need not complete a formal report.

EXHIBIT 5
Long Beach Police Department Policy Manual
Policy 7.1.7: Vehicle Pursuits

App. 34
7.1.7 VEHICLE PURSUITS
Revised June 2, 2016
The Patrol Bureau will have audit responsibility.
7.1.7.1

DEFINITIONS
Revised June 2, 2016

A) Pursuit – An event involving one or more law enforcement officers attempting to apprehend a suspected or actual violator of the law in a motor
vehicle while the driver is using evasive tactics, including, but not limited to, high speed driving,
driving off a highway, turning suddenly, or driving
in a legal manner but failing to yield to the other’s
signal to stop.
B) Actively involved units – The primary unit, the
secondary unit, and any other unit pursuing the
suspect vehicle.
C) Other Involved units, including, but not limited to:

D)

1)

Units requested by supervisor for traffic control

2)

Units needed to set perimeter

3)

Units needed for rescue or arrest teams

4)

Units for evidence collection and transportation

5)

Air support

Supervisor – A sworn employee with the rank of
Sergeant or higher.

App. 35
E) Surveillance mode – Observation of the suspect
vehicle, by the Air Support Unit (ASU), after a pursuit has been terminated by ground units.
F) Pursuit rated vehicle – Pursuant to California
Vehicle Code (CVC) § 21806, vehicles with the following:
1)

Alternating headlights that flash on and off;

2)

A forward facing, fixed red light; and

3)

A siren sounding.

7.1.7.2

INITIATING PURSUITS
Revised June 2, 2016

The duty of a suspect to yield to the lawful authority of
an officer is defined in CVC § 21806 and requires the
police unit’s red light and siren to be activated at all
times.
Officers are authorized to initiate a pursuit in the following circumstances:
1)

The officer has reasonable cause to believe that
the suspect he or she is attempting to arrest has
committed, is about to commit, or is threatening to
commit a felony crime.

2)

The officer, prior to initiating the pursuit, has reasonable cause to believe that the driving ability of
the suspect is so impaired that the suspect may
cause death or serious injury to another person.

An officer initiating a pursuit should, as soon as reasonably possible, notify the Disaster Preparedness and

App. 36
Emergency Communications Department (Communications Center) of the following:
1)

Location;

2)

Direction of travel;

3)

Speed;

4)

Reason for initiating the pursuit;

5)

Vehicle description and license plate, if available;

6)

Number of additional units reasonably needed to
join the pursuit to safely effect the arrest;

7)

Other facts relating to the suspect(s) that may present an increased danger;

When approval for continuation cannot be obtained by
a supervisor, officers shall cancel the pursuit.
7.1.7.3

OFFICER RESPONSIBILITIES
Revised June 2, 2016

A vehicle pursuit shall be conducted with red light and
siren for exemption from compliance with the rules of
the road, as required by CVC § 21055. Officers shall
drive with due regard and caution for the safety of all
persons using the highway, as required by CVC
§ 21056.
7.1.7.4

ASSESSMENT OF RISK FACTORS
Revised June 2, 2016

A police pursuit is a dangerous activity that should be
engaged in with the utmost awareness of the risks to

App. 37
other drivers, bystanders, the officers, and the suspect(s). The primary purpose of a motor vehicle pursuit
is to arrest fleeing suspects with the minimum amount
of force necessary and to minimize the risk of harm to
people and property. Even when a pursuit is justified,
everyone involved must continually evaluate whether
the dangers or risks of a pursuit outweigh the need to
immediately apprehend the suspect.
Some factors which should be considered and evaluated when initiating, authorizing, continuing, or terminating a pursuit include, but are not limited to:
1)

Time of day;

2)

Vehicular traffic conditions;

3)

Pedestrian traffic conditions;

4)

Weather conditions;

5)

Roadway conditions, e.g., slippery or under construction;

6)

Area of pursuit, e.g., near school or residential
area;

7)

Severity of crime;

8)

Whether the suspect has been identified and/or
can be located, making later apprehension probable;

9)

Speed and recklessness of suspect;

10) Capabilities and limitations of pursuing vehicle;
11) Availability of backup;
12) Officer’s familiarity with area of pursuit;

App. 38
13) Quality of radio communications with the dispatcher, pursuing units, and the authorizing supervisor;
14) Whether the suspect is known to be a juvenile; and
15) Involvement of the Air Support Unit.
7.1.7.5

PURSUIT COORDINATION
Revised June 2, 2016

The unit that initiates the pursuit shall be the primary
unit and shall broadcast all pertinent information regarding the pursuit, unless the primary unit specifically requests the ASU or another actively involved
unit to broadcast.
The primary unit may request as many units as necessary to allow for control and arrest of the suspect(s).
The field supervisor in charge of the pursuit will authorize the number of units to engage, or assist, in the
pursuit. This decision will be based upon an assessment of the risk factors and information received from
the primary unit.
7.1.7.6 AIR SUPPORT UNIT (ASU) RESPONSIBILITIES
Revised June 2, 2016
When available, the ASU shall respond to the scene of
a pursuit and shall assist pursuing units and the supervisor as follows:

App. 39
1)

Notify the Communications Center when they
have visual contact with a pursuit;

2)

If requested, assume responsibility for broadcasting locations and the direction of travel of the pursuit;

3)

Assist ground units and the supervisor monitoring
the pursuit by identifying and broadcasting all potential safety risks;

4)

Once visual contact is made, provide the supervisor with the number of ground units involved;

5)

When possible, identify units participating in the
pursuit for the purpose of management and control;

6)

Stay in radio contact with assisting ground units
to aid in the capture of the suspect(s);

7)

Electronically record the pursuit and the termination point (the recording shall be placed into evidence);

8)

When a supervisor terminates a pursuit and surveillance mode is initiated, the ASU will assume a
position that affords the suspect little possibility
of detecting the ASU. The searchlight will not be
used during the surveillance mode. The ASU will
follow the suspect vehicle until the vehicle stops,
or the surveillance is canceled.

7.1.7.7

FOREIGN JURISDICTION PURSUITS
Revised June 2, 2016

LBPD units, including the ASU, shall not engage in
pursuits initiated by foreign jurisdictions, unless the

App. 40
pursuit meets the criteria of the LBPD pursuit policy
and assistance is requested by the pursuing agency.
LBPD units engaged in a foreign jurisdiction’s pursuit
shall terminate their involvement if the pursuit leaves
the Long Beach city limits, unless directed to continue
by an LBPD supervisor.
If a foreign jurisdiction pursuit terminates within the
Long Beach city limits, the LBPD supervisor who approved the pursuit shall verify which agency will coordinate pursuit termination activities.
7.1.7.8

PURSUITS LEAVING CITY LIMITS
Revised June 2, 2016

If an LBPD pursuit leaves the city limits, the unit
broadcasting the pursuit shall immediately notify the
supervisor. The supervisor will direct the Communications Center to inform other affected agencies of the
pursuit.
Supervisors may request an outside agency to take
over a pursuit if it reasonably appears the other
agency is better able or equipped to continue the pursuit. If a pursuit is turned over to another agency,
LBPD units shall verify that agency has assumed control and then shall terminate participation; however,
the primary unit and field supervisor will remain
available to cooperate with the arresting agency if the
suspect(s) is apprehended.

App. 41
If a request is made by another agency for the LBPD
to abandon a pursuit within that agency’s jurisdiction,
that request shall be complied with immediately.
7.1.7.9

PURSUIT LIMITATIONS
Revised March 2, 2018

1)

Police vehicles not equipped for pursuits shall not
engage in a pursuit;

2)

When the ASU is ordered to perform in a surveillance mode, all units will attempt to stay clear of
the area in which the suspect vehicle is operating;

3)

Vehicles transporting prisoners shall not engage
in pursuits under any circumstances;

4)

Officers shall not use a vehicle as a barricade, or
to make intentional contact with a suspect vehicle
during a pursuit, unless using an authorized pursuit intervention technique (PIT), or the use of
deadly force is justified. The use of a vehicle as a
force option is governed by LBPD Manual § 7.1.2
USE OF FORCE.

7.1.7.10

MOTORCYCLE UNITS
Revised June 2, 2016

A motorcycle unit may only initiate a vehicle pursuit
for a violent felony or in other extreme circumstances.
The supervisor shall acknowledge that a motorcycle
unit is involved and approve or cancel the pursuit. The
supervisor must explain the necessity of the motorcycle unit’s involvement, per LBPD Manual § 7.1.7.14

App. 42
SUPERVISOR
TIES.

POST-PURSUIT

RESPONSIBILI-

Unless otherwise directed by a supervisor, motorcycle
units shall cease their involvement when a fourwheeled, pursuit rated vehicle joins the pursuit and
takes over as the primary unit. Once a motorcycle unit
ceases involvement in the pursuit, they shall follow all
requirements in LBPD Manual § 7.1.7.12 PURSUIT
TERMINATION.
7.1.7.11

TIRE DEFLATION DEVICE
Revised June 2, 2016

Tire deflation devices should be used whenever possible to safely end vehicle pursuits. Only personnel who
are trained in the operation and deployment of tire
deflation devices shall be permitted to deploy these
devices. Use of a tire deflation device shall be documented on a Supervisor’s Vehicle Pursuit Report.
The Collision Investigation Detail will be responsible
for the following:
1)

Maintaining liaison with manufacturing companies for equipment purchase and replacement;

2)

Training existing and newly assigned personnel in
the use of tire deflation devices;

3)

Distributing tire deflation devices throughout the
Patrol Divisions;

4)

Ensuring tire deflation devices issued to the Divisions are properly maintained;

App. 43
5)

Maintaining expertise regarding the tire deflation
device, usage, and procedural issues.

Unless the use of deadly force is justified, tire deflation
devices shall not be used to stop the following vehicles:
1)

Motorcycles, mopeds, or other similar type vehicles

2)

Vehicles transporting hazardous materials

3)

Buses with passengers

7.1.7.12

PURSUIT TERMINATION
Revised June 2, 2016

A pursuit shall be immediately terminated under the
following conditions:
1)

A field supervisor orders the pursuit terminated;

2)

Officers lose visual contact with the suspect vehicle and the ASU is not in a position to provide immediate directions;

3)

Officers lose clear radio contact with the Communications Center;

4)

Officers lose clear radio contact with the field supervisor authorizing the pursuit.

Once the decision is made to terminate the pursuit,
pursuing units shall:
1)

Obey the rules of the road;

2)

Deactivate their red lights and siren;

3)

Turn off from the pursued vehicle’s direction of
travel (do not follow);

App. 44
4)

Notify the Communications Center of the termination;

5)

ASU will not continue to follow the vehicle unless
placed into surveillance mode.

7.1.7.13

SUPERVISOR RESPONSIBILITIES
Revised June 2, 2016

A field supervisor shall be notified immediately when
a unit initiates a pursuit. After evaluation of the circumstances surrounding the pursuit, the field supervisor shall make a decision on whether to allow the
pursuit to continue and shall transmit that decision to
the pursuing unit. If possible, the supervisor should
not be actively involved in the pursuit, but shall monitor radio transmissions and be responsible for the progress of the pursuit. The supervisor may terminate the
pursuit at any time.
Any supervisor initiating a pursuit shall be considered
the primary unit and subject to the duties of a primary
unit, including seeking authorization for the pursuit
from another supervisor. The supervisor should relinquish his or her role as the primary unit to the first
assisting unit on scene.
7.1.7.14

SUPERVISOR POST-PURSUIT
SPONSIBILITIES

RE-

Revised June 2, 2016
A field supervisor shall go to the scene of a terminated
pursuit and take command. The supervisor shall be

App. 45
responsible for ensuring all appropriate crime and
arrest reports are filed.
On each pursuit, the supervisor shall complete a Supervisor’s Vehicle Pursuit Review, which will include
the following:
1)

Identification of all personnel involved both authorized and unauthorized;

2)

Summary of the events leading up to the pursuit;

3)

Chronological events of the pursuit;

4)

Pertinent events occurring after the pursuit;

5)

Any retraining.

A supervisor who was actively involved in a pursuit
shall not file the Supervisor’s Vehicle Pursuit Review.
7.1.7.15

DISASTER PREPAREDNESS AND
EMERGENCY
COMMUNICATIONS
DEPARTMENT (COMMUNICATIONS
CENTER) RESPONSIBILITIES
Revised June 2, 2016

Upon notification by a unit that he or she is in pursuit,
the Communications Center will contact a sworn field
supervisor to take supervisory control of the pursuit.
The supervisor will be informed of all available information including the units involved.
The dispatcher handling communications for the pursuit will provide all necessary information to the field
units. All units will be advised when the pursuit is terminated or a supervisor requests a surveillance mode.

App. 46
Any necessary information will then be conveyed to
the ground units to avoid unnecessary contact with the
suspect during the surveillance operation.
The cancellation of a pursuit will be broadcast to all
units along with the suspect’s direction of travel, so
units may stay clear of the suspect vehicle.
7.1.7.16

REVIEW OF PURSUITS – POLICE VEHICLE AND AIR SUPPORT UNIT
Revised June 2, 2016

The Collision Investigation Detail shall gather all pertinent pursuit information and generate a Pursuit Review Report. This report shall contain an analysis
summary of the pursuit reports, supervisor’s report,
video recordings, audio recordings, and any other information related to the pursuit.
7.1.7.17

REVIEW OF PURSUITS – TIME PERIOD
Revised June 2, 2016

Pursuant to CVC § 14602.1, the Collision Investigation
Detail shall complete all State-mandated reporting requirements within 30 days.
7.1.7.18

REVIEW OF PURSUITS – COMMANDER
RESPONSIBILITIES
Revised June 2, 2016

The involved employee’s Commander will review the
Pursuit Review Report, provide recommendations and

App. 47
administrative insight for the recommended action,
and forward the Pursuit Review Report to the involved
employee’s Bureau Deputy Chief.
7.1.7.19

REVIEW OF PURSUITS – BUREAU
RESPONSIBILITIES
Revised June 2, 2016

The involved employee’s Bureau Chief will review the
Pursuit Review Report, and forward the Pursuit Review Report to the Internal Affairs Division.
The involved employee’s Division Commander and the
CID supervisor will be notified of any action to be
taken.
7.1.7.20

TRAINING
Revised June 2, 2016

All sworn personnel will participate in Annual training that shall include, at minimum, a review of this
policy.

EXHIBIT 6
Los Angeles Police Department Policy Manual
Volume 3: Management Rules and Procedures
Policy 579.15: Objectives of Body Worn Video

App. 48
When time constraints do not allow for the normal
ordering process and a required DICVS recorded file is
needed before the next scheduled courier delivery, the
requesting Department employee shall ensure that the
DICVS recorded file is retrieved from PD’s Central
Property Section’s evidence counter. In such cases, the
approving supervisor shall follow the same procedures
to request the disc through the COBAN link on the Departments LAN.
Additionally, a telephonic request shall be made to
PD’s Central Property Section’s watch commander to
advise of the need to expedite the request.
Note: Department supervisors from non-geographic
bureaus and divisions shall ensure that the DICVS
recorded file is retrieved from PD’s Central Property
Sections evidence counter after completing the established procedures.
AREA PROPERTY DISPOSITION COORDINATORS RESPONSIBILITY. The Area Property Disposition Coordinator shall monitor the DICVS recorded
video disc(s) and the Digital In-Car Video Evidence
Control Log, located in the analyzed evidence locker, to
ensure the timely and proper disposition of the videos.
579.15 OBJECTIVES OF BODY WORN VIDEO.
The following provisions are intended to provide LAPD
Officers with instructions on when and how to use
Body Worn Video (BWV) to ensure reliable recording
of enforcement and investigative contacts with the
public. “Officers,” as referenced below, include all sworn

App. 49
personnel. The Department has adopted the use of
BWV by uniformed personnel to:
•

Collect evidence for use in criminal investigations and prosecutions;

•

Deter criminal activity and uncooperative behavior during police-public interactions;

•

Assist officers with completing reports and
providing testimony in court;

•

Promote accountability;

•

Assist in resolving complaints against officers
including false allegations by members of the
public; and,

•

Provide additional information for officer
evaluation, training, and continuous improvement.

Body Worn Video provides additional information regarding an investigative or enforcement contact with a
member of the public. Body Worn Video recordings,
however, provide a limited perspective of the encounter
and must be considered with all other available evidence, such as witness statements, officer interviews,
forensic analyses and documentary evidence, when
evaluating the appropriateness of an officer’s actions.
BODY WORN VIDEO EQUIPMENT. Body Worn
Video equipment generally consists of a body-mounted
camera with a built-in microphone and a handheld
viewing device. The BWV camera is worn on the outside of an officer’s uniform, facing forward to make
video and audio recordings. The BWV video and audio

App. 50
recordings are stored digitally on the BWV camera and
can be viewed on a handheld viewing device or an authorized computer. An officer cannot modify, alter, or
delete video or audio once recorded by the BWV camera.
WHEN ACTIVATION OF BODY WORN VIDEO
EQUIPMENT IS REQUIRED. Officers shall activate
their BWV devices prior to initiating any investigative
or enforcement activity involving a member of the public, including all:
•

Vehicle stops;

•

Pedestrian stops (including officer-initiated
consensual encounters);

•

Calls for service;

•

Code 3 responses (including vehicle pursuits)
regardless of whether the vehicle is equipped
with In-Car Video equipment;

•

Foot pursuits;

•

Searches;

•

Arrests;

•

Uses of force;

•

In-custody transports;

•

Witness and victim interviews (except as
specified below);

•

Crowd management and control involving
enforcement or investigative contacts; and,

•

Other investigative or enforcement activities
where, in the officer’s judgment, a video

App. 51
recording would assist in the investigation or
prosecution of a crime or when a recording of
an encounter would assist in documenting the
incident for later investigation or review.
INABILITY TO ACTIVATE PRIOR TO INITIATING ENFORCEMENT OR INVESTIGATIVE ACTIVITY. If an officer is unable to activate his or her
BWV prior to initiating any of these enforcement or investigative activities, the officer shall activate the device as soon as it is practical and safe to do so. As in all
enforcement and investigative activities including vehicle and pedestrian stops, the safety of the officers and
members of the public are the highest priorities.
RECORDING OF THE ENTIRE CONTACT. The
BWV shall continue recording until the investigative
or enforcement activity involving a member of the public has ended. If enforcement or investigative activity
with a member of the public resumes, the officer shall
activate the BWV device and continue recording.
DOCUMENTATION REQUIRED FOR FAILING
TO ACTIVATE BODY WORN VIDEO OR RECORDING THE DURATION OF THE CONTACT.
If an officer is unable or fails to activate the BWV prior
to initiating an enforcement or investigative contact,
fails to record the entire contact, or interrupts the recording for any reason, the officer shall set forth the
reasons why a recording was not made, was delayed,
was interrupted, or was terminated in the comments
field of the incident in the Computer Aided Dispatch
(CAD) System, Daily Field Activity Report (DFAR),

App. 52
Form 15.52.00, Traffic Daily Field Activity Report,
Form 15.52.01, Sergeant’s Daily Report, Form 15.48.00,
Metropolitan Division Officer’s Log, Form 15.52.04 or
Gang Enforcement Detail – Supervisor’s Daily Report
Form, 15.49.00.
Exceptions: Officers are not required to activate and record investigative or enforcement encounters with the public when:
•

A witness or victim refuses to provide a
statement if recorded and the encounter
is non-confrontational;

•

In the officer’s judgment, a recording
would interfere with his or her ability to
conduct an investigation, or may be inappropriate, because of the victim or witness’s physical condition, emotional state,
age, or other sensitive circumstances
(e.g., a victim of rape, incest, or other form
of sexual assault);

•

Situations where recording would risk
the safety of a confidential informant, citizen informant, or undercover officer; or

•

In patient-care areas of a hospital, rape
treatment center, or other healthcare facility unless an enforcement action is
taken in these areas.

CONFIDENTIAL NATURE OF RECORDINGS.
Body Worn Video use is limited to enforcement and investigative activities involving members of the public.
The BWV recordings will capture video and audio

App. 53
evidence for use in criminal investigations, administrative reviews, and other proceedings protected by
confidentiality laws and Department policy. Officers
shall comply with all applicable laws and policies regarding confidential information including Department Manual Section 3/405, Confidential Nature of
Department Records, Reports, and Information. Unauthorized use or release of BWV recordings may compromise ongoing criminal and administrative
investigations or violate the privacy rights of those recorded. Therefore, any unauthorized use or release of
BWV or other violation of confidentiality laws and Department policies are considered serious misconduct
and subject to disciplinary action.
PROHIBITION AGAINST MODIFICATION OF
RECORDINGS. Officers shall not copy, edit, alter,
erase, or otherwise modify in any manner BWV recordings except as authorized by law or Department policy.
Any violation of this provision is considered serious
misconduct and subject to disciplinary action.
NOTICE TO MEMBERS OF THE PUBLIC OF RECORDING. Officers are encouraged to inform individuals that they are being recorded when feasible.
Officers, however, are not required to obtain consent
from members of the public when the officer is lawfully
in the area where the recording takes place. For example, an officer who lawfully enters a business or residence shall record any enforcement or investigative
activity, as set forth above, and is not required to obtain
consent from members of the public who may also be
present. In addition, officers are not required to play

App. 54
back BWV recordings to allow members of the public
to review the video footage.
PROHIBITION AGAINST RECORDING PERSONNEL IN NON-ENFORCEMENT OR INVESTIGATIVE SITUATIONS. Body Worn Video
equipment shall only be used in conjunction with official law enforcement and investigative activities involving members of the public. Body Worn Video shall
not be used to record Department personnel during
briefings, meetings, roll calls or while in private spaces
such as locker rooms or restrooms.
DEPARTMENT-ISSUED EQUIPMENT ONLY. Officers assigned BWV equipment shall not use any
other non-Department issued video or audio equipment, such as personally owned video or audio recorders, to record enforcement or investigative activities
involving members of the public unless expressly authorized by a supervisor. Uniformed supervisory personnel, however, may use digital recording devices
other than a BWV to record interviews when conducting use of force or personnel complaint investigations.
Nothing in this provision precludes personnel from utilizing authorized still photography equipment.
PROPERTY OF THE DEPARTMENT. Body Worn
Video equipment and all data, images, video, and
metadata captured, recorded, or otherwise produced is
the sole property of the Department and any unauthorized release is strictly prohibited.
TRAINING REQUIRED. Officers who are assigned a
BWV must complete Department-approved training in

App. 55
the proper use and maintenance of the devices before
deploying to the field.
INSPECTION AND TESTING OF EQUIPMENT.
The BWV equipment is the responsibility of the assigned officer and will be used with reasonable care to
ensure proper functioning and reliability. At the start
of a field assignment, officers shall inspect and test
their BWV and make sure it is undamaged and operating properly. Officers shall document the results of
their inspection in the comments field of “Status
Change – SW” entry within CAD, in the comments field
of the DFAR or Traffic DFAR, the Sergeant’s Daily Report, Gang Enforcement Detail – Supervisor’s Daily
Report, or Metropolitan Division Officer’s Log.
DAMAGED, MALFUNCTIONING OR INOPERABLE EQUIPMENT. If an officer’s BWV malfunctions
or is damaged, the officer shall notify an on-duty supervisor (who shall notify the watch commander) and
complete an Employee’s Report, Form 15.07.00. The officer is required to provide the malfunctioning or damaged equipment to the kit room officer and obtain a
functional BWV before deploying to the field.
IDENTIFYING RECORDINGS. For each incident
recorded on a BWV, officers shall identify the event
type and other information using the BWV equipment
and software that best describes the content of the
video (i.e. arrest, traffic stop, report). Body Worn Video
recordings, however, are not a replacement for written
reports or other required documentation such as a
CAD summary or DFAR.

App. 56
STORAGE OF RECORDINGS. At the end of each
shift, officers shall upload all BWV recordings to secure
storage by docking the device at the station.
VIEWING OF BODY WORN VIDEO RECORDINGS BY OFFICERS. The accuracy of police reports,
officer statements, and other official documentation is
essential for the proper administration of justice and
complying with the Department’s obligation to maintain full and complete records of enforcement and investigative activities. Investigators, supervisors,
prosecutors, and other officials rely on complete and
accurate records to perform their essential duties and
responsibilities. Officers are therefore required to review BWV recordings on their assigned device or authorized computer prior to documenting an incident,
arrest, search, interview, use of force, or other enforcement or investigative activity to ensure that their reports, statements, and documentation are accurate
and complete.
PROCEDURE FOR REVIEWING BODY WORN
VIDEO RECORDINGS IN CATEGORICAL USE
OF FORCE INCIDENTS. If an officer is involved in
a Categorical Use of Force (CUOF), such as an officerinvolved shooting, an officer shall not review his or her
BWV until authorized by the assigned Force Investigation Division (FID) investigator. Once authorized, the
officer shall review his or her BWV recording, and any
other relevant BWV footage as deemed necessary and
appropriate by the assigned FID supervisor, prior to
being interviewed by investigators. An officer may
have an employee representative present during the

App. 57
review of the BWV recordings without the FID investigator or supervisor present. The separating and
monitoring of officers involved in a CUOF shall be
maintained during the review of BWV recordings and
a review shall not occur jointly among involved employees.
DOCUMENTATION OF RECORDINGS. Officers
are required to document any portion of an incident
captured on the BWV system under the heading “Photos, Recordings, Video, DICV, BWV and Digital Imagine on all administrative and investigative reports
(e.g., The suspect’s spontaneous statements and actions were recorded via BWV”). If an employee is unable to review the BWV recording before submitting a
report, the officer must document in this section the
circumstances that prevented his or her review. If any
portion of an incident resulting in an arrest was captured by BWV equipment, officers shall identify the
existence of a BWV recording on all necessary forms
including the City Attorneys Disclosure Statement.
SUPERVISOR’S RESPONSIBILITIES. Supervisors assigned to any unit with BWV-equipped officers
shall:
•

Ensure that officers assigned BWV equipment have completed Department-required
training and are familiar with applicable policies and procedures;

•

Conduct periodic inspections of officers assigned BWV equipment and ensure that the

App. 58
BWV cameras are properly affixed to the officers’ uniforms and fully operable;
•

Ensure officers upload all BWV recordings at
the end of their shifts; and,

•

Review relevant BWV recordings prior to submitting any administrative reports (e.g. noncategorical use of force investigations, pursuits, officer-involved traffic collisions).

After conducting an inspection of an officer’s assigned
BWV equipment, the supervisor shall document the inspection in his or her Sergeant’s Daily Report. If any of
the BWV equipment is found to be defective, the supervisor must ensure that the equipment is removed from
service and immediately replaced. The supervisor
must also complete an Employee’s Report regarding
the defective equipment and notify the system administrator at Information Technology Group via email at
BWV@lapd.lacity.org. Watch commanders must document the supervisor’s findings in their Watch Commander’s Daily Report, Form 15.80.00, and take any
appropriate action depending on the cause of the problem.
RECORDINGS IN NON-CATEGORICAL USE OF
FORCE INCIDENTS – SUPERVISOR’S RESPONSIBILITIES. Supervisors investigating Non-Categorical Use of Force (NCUOF) incidents shall, when
available, allow involved officers to review their BWV
recordings and, if deemed necessary, review other
BWV recordings to ensure complete and accurate reports and documentation of the incident.

App. 59
RECORDINGS IN CATEGORICAL USE OF
FORCE INCIDENTS – SUPERVISOR’S RESPONSIBILITIES. Supervisors assigned to any unit with
BWV-equipped officers must take possession of an officer’s BWV equipment when the officer is involved in
a Categorical Use of Force, ensure the recording has
stopped, power off the camera, and maintain custody
until transferred to FID personnel.
Note: Supervisors, however, shall not view
the BWV recording without express authorization of FID.
Force Investigation Division investigators, upon arrival at the scene of a Categorical Use of Force incident,
shall take possession of any involved officer’s BWV
camera and complete the upload process.
WATCH COMMANDER’S RESPONSIBILITIES.
Watch commanders assigned to any unit with BWVequipped officers shall:
•

Conduct roll call training on expectations, use,
and maintenance of the BWV equipment and
debrief BWV captured incidents of value;

•

Review deviations from BWV policy and procedures and take appropriate action;

•

Ensure all BWV anomalies identified by the
Area training coordinator have been addressed and any appropriate documentation
is returned to the Area training coordinator
for commanding officer review;

App. 60
•

Review supervisor inspections regarding defective equipment, systems, and ensure necessary steps are taken to have them repaired;

•

Review Sergeant’s Daily Reports to ensure inspections of sworn personnel assigned BWV
units are being conducted and documented. If
field inspections are not properly documented,
the watch commander must take appropriate
action to correct the deficiency and appropriately document the fmdings (i.e., Employee
Comment Sheet, Form 01.77.00, Supervisor
Action Item, Notice to Correct Deficiencies,
Form Gen. 78, or a Complaint Form, Form
01.28.00) and the corrective action taken. The
corrective action must also be documented
within the Learning Management System
(LMS); and,

•

Log the appropriate disposition on the Video
Evidence Control Log, Form 10.11.05, which
must be maintained in the analyzed evidence
locker at the concerned Area.

KIT ROOM OFFICER’S RESPONSIBILITIES. Officers assigned to the kit room shall:
•

Conduct daily inspections of all BWV docking
equipment to ensure they are active;

•

Inspect any BWV devices returned to the kit
room as inoperative;

•

Assign spare units to sworn personnel who returned their primary unit to the kit room;
and,

App. 61
Note: If found to be defective, the kit room
officer must declare the item inoperable and
verify that an Employee’s Report has been
completed. If it is discovered that no documentation exists declaring the item inoperable,
the kit room officer must complete an Employee’s Report and submit the Employee’s
Report to the watch commander accompanied
with the equipment log at the completion of
the officer’s shift
•

Provide a copy of the Employee’s Report documenting the inoperable equipment to the
Area training coordinator along, with any of
the inoperable equipment.

TRAINING COORDINATOR’S RESPONSIBILITIES. Area training coordinators shall:
•

Verify officers have been trained on the use
and deployment of BWV;

•

Document all employees who have been
trained on the use of BWV into the LMS including all traffic officers and reserve officers
eligible for field duty;

•

Ensure all employees transferring into the
Area receive proper training on the use and
deployment of BWV;

•

Review all Employee’s Reports documenting
inoperable equipment and facilitate the
equipment’s repair;

•

Deliver all inoperable equipment to the Information Technology Group (ITG), Tactical
Technology Section; and,

App. 62
•

Notify the watch commander or specialized
unit officer in charge (OIC) in the event that
it appears that BWV equipment has been
tampered with.

COMMANDING OFFICER’S RESPONSIBILITIES.
Area commanding officers (Areas with BWV) are responsible for ensuring compliance with BWV training,
policies, and procedures by regularly monitoring and
inspecting BWV equipment within their command.
Area commanding officers are also responsible for supervising the proper maintenance and disposition of
division records, ensuring adherence to record retention protocols and properly filing all BWV documents
for future reference.
INFORMATION TECHNOLOGY GROUP, TACTICAL TECHNOLOGY SECTION, RESPONSIBILITIES. The OIC of ITG, Tactical Technology Section, is
responsible for:
•

Coordinating warranty service and maintenance through Department-approved vendor(s);

•

Providing technical assistance and subject
matter experts related to investigations; and,

•

Coordinating the replacement of inoperable,
malfunctioning or damaged equipment and/or
systems.

579.17 USE OF BODY WORN VIDEO OR DIGITAL
IN-CAR VIDEO SYSTEM FOR LOS ANGELES
POLICE DEPARTMENT TRAINING PURPOSES.
The following procedures must be followed when

App. 63
Department personnel seek to use digital video recordings for training purposes.
For Official Use Only. As set forth in Department
Manual Sections 3/579.13, Digital In-Car Video System (DICVS) Use and Deployment, and 3/579.15, Objectives of Body Worn Video, Body Worn Video (B WV)
and DICVS footage may only be used for official Department purposes and any unauthorized use or release of video footage is considered serious misconduct
subject to disciplinary action.
Video Recordings Released to the Public. Video or
audio footage previously released to the public by the
Department (e.g., video, audio, or other recordings released in a critical incident community briefing pursuant to Department Manual Section 1/420.55, or video
introduced as evidence in a civil or criminal hearing)
may be used for training or other appropriate purposes
and approval pursuant to this manual section is not
required.
Tactical Debriefs and Extensive Retraining Sessions. Nothing shall restrict the use of BWV or DICVS
during authorized Tactical Debriefs or Extensive Retraining Sessions following the adjudication of a use of
force.
Supervisor’s Responsibilities. If a supervisor identifies a BWV or DICVS recording that he or she desires
to use for internal Department training purposes, the
supervisor shall obtain written consent from the Department employee(s) that are readily identifiable to
the video-viewing audience (e.g., facially, viewable

App. 64
name tag, officers name mentioned audibly), complete
a Digital Video Recordings for Training Consent, Form
13.16.00, and attach it with the Request/Approval for
Use of Digital Video for Training, Form 13.16.01, which
includes the applicable reference number of the video
recording. The supervisor shall then submit both forms
to the Area/divisional commanding officer (CO) for approval.
Area/divisional Commanding Officer’s Responsibilities.
•

The Area/divisional CO must confirm that the
particular video recording that is requested to
be used for training is not the subject of or relevant to:
○

Any ongoing administrative investigation, pending personnel complaint, administrative appeal, grievance, arbitration,
criminal investigation against an officer,
civil litigation against the Department, or
Board of Rights proceeding; or,

○

A pending adjudication regarding a use of
force, pursuit, or traffic collision.
Note: If one of these actions is initiated
and pending after approval to use BWV
or DICVS footage for Department training purposes, the Department entity
that learns of the new circumstance
must immediately notify Personnel and
Training Bureau (PTB) to determine, in

App. 65
consultation with appropriate Department entities, whether the footage should
continue to be used for training purposes.
○

The Area/divisional CO shall review and
submit the Digital Video Recordings for
Training Consent and the Request/Approval for Use of Digital Video for Training to his or her bureau CO.

Bureau Commanding Officer’s Responsibilities.
The bureau CO shall review and submit the Digital
Video Recordings for Training Consent and the Request/
Approval for Use of Digital Video for Training to the
Information Technology Group (ITG) CO.
Information Technology Group Commanding Officer’s Responsibilities. The ITG CO shall review
and submit the Digital Video Recordings for Training
Consent and the Request/Approval for Use of Digital
Video for Training to the PTB CO.
Personnel and Training Bureau Commanding
Officer’s Responsibilities. The PTB CO shall review
and submit both the Digital Video Recordings for
Training Consent and the Request/Approval for Use
of Digital Video for Training to the Director, Office of
Constitutional Policing and Policy (OCPP), for approval if the training is to be conducted for persons outside of the Department. Otherwise, the PTB CO shall
send the Request/Approval for Use of Digital Video for
Training to the respective bureau, with copies to the
requesting division and ITG. The PTB CO shall have
final authority on approval of the Request/Approval for

App. 66
Use of Digital Video for Training, if the training is to
be conducted solely for Department personnel. Personnel and Training Bureau shall maintain all necessary
databases and tracking mechanisms for all Request/
Approval for Use of Digital Video for Training.
Director, Office of Constitutional Policing and
Policy, Responsibilities. The Director, OCPP, shall
have final authority on approval of the Request/
Approval for Use of Digital Video for Training when
the training is to be conducted for non-law enforcement personnel or training programs sponsored by
other jurisdictions. The original request/approval for
use of digital video for training shall be returned to
PTB for retention.
For Los Angeles Police Department Audiences
Only: Video recordings approved for training purposes
shall only be used for the training of law enforcement
and other Department personnel and only if the training video is pertinent to those attending, as determined by the highest-ranking supervisor present. If
any members of the public will be present during training, approval must be obtained from the Director,
OCPP, prior to the use of the video recording.
This policy does not affect Department Manual Section
1/420.55, Critical Incident Video Release Policy, regarding video release for critical incidents or the Department’s obligations, or waivers of exemptions under
the California Public Records Act.
579.18 TELEMATICS SYSTEM. Vehicles (to include
all Department moving conveyances; motorized or not)

App. 67
equipped with Telematics will enable the Department
to monitor vehicle operation in near real-time, providing easy-to-use, real-time maps, dashboards, and reports. The data is updated a few times a minute or
when ? trigger-events ? occur. Historical data can be
made available for up to 12 months. Telematics tracks
various components including, but not limited to:
•

Vehicle identifiers (e.g., ? shop ? number, vehicle identification number);

•

Vehicle diagnostic data) e.g., airbag sensor,
mileage, idling);

•

Vehicle speed, location, and direction of travel;

•

Use of seatbelts;

EXHIBIT 7
Torrance Police Department Policy Manual
Policy 307: Vehicle Pursuits

App. 68
Policy
307

Torrance Police Department
TBD Policy Manual

Vehicle Pursuits
307.1

PURPOSE AND SCOPE

Vehicle pursuits expose innocent citizens, law enforcement officers and fleeing violators to the risk of serious
injury or death. The primary purpose of this policy is
to provide officers with guidance in balancing the
safety of the public and themselves against law enforcement’s duty to apprehend violators of the law. Another purpose of this policy is to reduce the potential
for pursuit-related collisions. Vehicular pursuits require officers to exhibit a high degree of common sense
and sound judgment. Officers must not forget that the
immediate apprehension of a suspect is generally not
more important than the safety of the public and pursuing officers.
Deciding whether to pursue a motor vehicle is a critical
decision that must be made quickly and under difficult
and unpredictable circumstances. In recognizing the
potential risk to public safety created by vehicular pursuits, no officer or supervisor shall be criticized or disciplined for deciding not to engage in a vehicular
pursuit because of the risk involved. This includes circumstances where department policy would permit the
initiation or continuation of the pursuit. It is recognized that vehicular pursuits are not always predictable and decisions made pursuant to this policy will be

App. 69
evaluated according to the totality of the circumstances reasonably available at the time of the pursuit.
Officers must remember that the most important factors to the successful conclusion of a pursuit are proper
self-discipline and sound professional judgment. Officer’s conduct during the course of a pursuit must be
objectively reasonable; that is, what a reasonable officer would do under the circumstances. An unreasonable individual’s desire to apprehend a fleeing suspect
at all costs has no place in professional law enforcement.
Department employees shall not request, encourage, or
permit any civilian to take any action or institute any
pursuit of suspected or known criminals. Whenever an
employee becomes aware that a civilian has initiated
such a pursuit, the employee shall, whenever possible,
encourage the pursuit to be terminated immediately.
307.1.1

VEHICLE PURSUIT DEFINED

A vehicle pursuit is an event involving one or more law
enforcement officers attempting to apprehend a suspect, who is attempting to avoid arrest while operating
a motor vehicle by using high-speed driving or other
evasive tactics, such as driving off a highway, turning
suddenly, or driving in a legal manner but willfully
failing to yield to an officer’s signal to stop.

App. 70
307.2

OFFICER RESPONSIBILITIES

It shall be the policy of this department that a vehicle
pursuit shall be conducted only with a red light and
siren as required by Vehicle Code § 21055 for exemption from compliance with the rules of the road. The
following policy is established to provide officers with
guidelines for driving with due regard and caution for
the safety of all persons using the highway as required
by Vehicle Code § 21056.
To discourage violators or suspects, from attempting to
avoid arrest by fleeing, officers should be in close proximity to the violator’s vehicle, whenever possible, before activating a red light and attempting to stop the
suspect vehicle. Officers, when possible, should request
and wait for assisting units to get into position before
initiating a vehicle stop that may result in a pursuit.
307.2.1

WHEN TO INITIATE A PURSUIT

Officers are authorized to initiate a pursuit when it is
reasonable to believe that a suspect is attempting to
evade arrest or detention by fleeing in a vehicle.
The following factors individually and collectively
shall be considered in deciding whether to initiate a
pursuit:
(a) Seriousness of the known or reasonably suspected crime and its relationship to community safety.
(b) The importance of protecting the public and
balancing the known or reasonably suspected

App. 71
offense and the apparent need for immediate
capture against the risks to officers, innocent
motorists and others.
(c) Apparent nature of the fleeing suspects (e.g.,
whether the suspects represent a serious
threat to public safety).
(d) The identity of the suspects has been verified
and there is comparatively minimal risk in allowing the suspects to be apprehended at a
later time.
(e) Safety of the public in the area of the pursuit,
including the type of area, time of day, the
amount of vehicular and pedestrian traffic
and the speed of the pursuit relative to these
factors.
(f ) Pursuing officers familiarity with the area of
the pursuit, the quality of radio communications between the pursuing units and the
dispatcher/supervisor and the driving capabilities of the pursuing officers under the conditions of the pursuit.
(g) Weather, traffic and road conditions that substantially increase the danger of the pursuit
beyond the worth of apprehending the suspect.
(h) Performance capabilities of the vehicles used
in the pursuit in relation to the speeds and
other conditions of the pursuit.
(i)

Vehicle speeds.

(j)

Other persons in or on the pursued vehicle
(e.g., passengers, co-offenders and hostages).

App. 72
(k) Availability of other resources such as helicopter assistance.
(l)

307.2.2

The police unit is carrying passengers other
than police officers. Pursuits should not be undertaken with a prisoner in the police vehicle.
WHEN TO TERMINATE A PURSUIT

Pursuits should be discontinued whenever the totality
of objective circumstances known or which reasonably
ought to be known to the officer or supervisor during
the pursuit indicates that the present risks of continuing the pursuit reasonably appear to outweigh the
risks resulting from the suspect’s escape.
The factors listed in When to Initiate a Pursuit of this
policy are expressly included herein and will apply
equally to the decision to discontinue as well as the decision to initiate a pursuit. Officers and supervisors
must objectively and continuously weigh the seriousness of the offense against the potential danger to innocent motorists and themselves when electing to
continue a pursuit. In the context of this policy, the
term “terminate” shall be construed to mean discontinue or to stop chasing the fleeing vehicle.
In addition to the factors listed in When to Initiate a
Pursuit of this policy, the following factors should also
be considered in deciding whether to terminate a pursuit:
(a) Distance between the pursuing officers and
the fleeing vehicle is so great that further

App. 73
pursuit would be futile or require the pursuit
to continue for an unreasonable time and/ or
distance.
(b) Pursued vehicle’s location is no longer definitely known.
(c) Officer’s pursuit vehicle sustains any type of
damage that renders it unsafe to drive.
(d) Extended pursuits of violators for misdemeanors not involving violence or risk of serious harm (independent of the pursuit) are
discouraged.
(e) There are hazards to uninvolved bystanders
or motorists.
(f ) If the identity of the offender is known and it
does not reasonably appear that the need for
immediate capture outweighs the risks associated with continuing the pursuit, officers
should strongly consider discontinuing the
pursuit and apprehending the offender at a
later time.
(g) Pursuit is terminated by a supervisor.
307.2.3

SPEED LIMITS

The speed of a pursuit is a factor that should be evaluated on a continuing basis by the officer and supervisor. Evaluation of vehicle speeds shall take into
consideration public safety, officer safety and the
safety of the occupants of the fleeing vehicle.

App. 74
Should high vehicle speeds be reached during a pursuit, officers and supervisors shall also consider these
factors when determining the reasonableness of the
speed of the pursuit:
(a) Pursuit speeds have become unreasonably
unsafe for the surrounding conditions.
(b) Pursuit speeds have exceeded the driving
ability of the officer.
(c) Pursuit speeds are beyond the capabilities of
the pursuit vehicle thus making its operation
unsafe.
307.3

PURSUIT UNITS

Pursuit units should be limited to three units and a
supervisor; however, the number of units involved will
vary with the circumstances. An officer or supervisor
may request additional units to join a pursuit if, after
assessing the factors outlined above, it appears that
the number of officers involved would be insufficient to
safely arrest the suspects. All other officers should stay
out of the pursuit, but should remain alert to its progress and location. Any officer who drops out of a pursuit may then, if necessary, proceed to the termination
point at legal speeds, following the appropriate rules of
the road.
307.3.1

MOTORCYCLE OFFICERS

A distinctively marked patrol vehicle equipped with
emergency overhead lighting should replace a police

App. 75
motorcycle as primary and/or secondary pursuit unit
as soon as practical.
307.3.2 VEHICLES
EQUIPMENT

WITHOUT

EMERGENCY

Vehicles not equipped with a red light and siren are
generally prohibited from initiating or joining in any
pursuit. Officers in such vehicles, however, may become
involved in emergency activities involving serious
crimes or life threatening situations. Those officers
should terminate their involvement in any pursuit immediately upon arrival of a sufficient number of emergency police vehicles or any police helicopter. The
exemptions provided by Vehicle Code § 21055 do not
apply to officers using vehicles without emergency
equipment.
307.3.3 PRIMARY UNIT RESPONSIBILITIES
The initial pursuing unit will be designated as the
primary pursuit unit and will be responsible for the
conduct of the pursuit unless it is unable to remain
reasonably close enough to the violator’s vehicle. The
primary responsibility of the officer initiating the pursuit is the apprehension of the suspects without unreasonable danger to him/herself or other persons.
Notify Communications that a vehicle pursuit has
been initiated and as soon as practicable provide information including, but not limited to:

App. 76
(a) Reason for the pursuit.
(b) Location and direction of travel.
(c) Speed of the fleeing vehicle.
(d) Description of the fleeing vehicle and license
number, if known.
(e) Number of known occupants.
(f ) The identity or description of the known occupants.
(g) Information concerning the use of firearms,
threat of force, injuries, hostages or other unusual hazards.
Unless relieved by a supervisor or secondary unit, the
officer in the primary unit shall be responsible for the
broadcasting of the progress of the pursuit. Unless
practical circumstances indicate otherwise, and in
order to concentrate on pursuit driving, the primary
officer should relinquish the responsibility of broadcasting the progress of the pursuit to a secondary unit
or aircraft joining the pursuit.
If the primary unit contains only one officer, officers
shall transfer primary unit responsibility to a two-officer unit when that unit is in a position to assume primary unit responsibilities. The one-officer unit shall
then continue the pursuit as a secondary unit unless
relieved of such duties by another two-officer unit or a
supervisor.

App. 77
307.3.4 SECONDARY UNITS RESPONSIBILITIES
The second officer in the pursuit is responsible for the
following:
(a) The officer in the secondary unit should immediately notify the dispatcher of entry into
the pursuit.
(b) Remain a safe distance behind the primary
unit unless directed to assume the role of primary officer, or if the primary unit is unable
to continue the pursuit.
(c) The secondary officer should be responsible
for broadcasting the progress of the pursuit
unless the situation indicates otherwise.
307.3.5 PURSUIT DRIVING TACTICS
The decision to use specific driving tactics requires the
same assessment of considerations outlined in the factors to be considered concerning pursuit initiation and
termination. The following are tactics for units involved in the pursuit:
(a) Officers, considering their driving skills and
vehicle performance capabilities, will space
themselves from other involved vehicles such
that they are able to see and avoid hazards or
react safely to maneuvers by the fleeing vehicle.
(b) Because intersections can present increased
risks, the following tactics should be considered:

App. 78
1.

Available units not directly involved in
the pursuit may proceed safely to controlled intersections ahead of the pursuit
in an effort to warn cross traffic.

2.

Pursuing units should exercise due caution when proceeding through controlled
intersections.

(c) As a general rule, officers should not pursue a
vehicle driving left of center (wrong way) on a
freeway. In the event that the pursued vehicle
does so, the following tactics should be considered:
1.

Requesting assistance from an air unit.

2.

Maintaining visual contact with the pursued vehicle by paralleling it on the correct side of the roadway.

3.

Requesting other units to observe exits
available to the suspects.

(d) Notifying the California Highway Patrol
(CHP) and/or other jurisdictional agency if it
appears that the pursuit may enter their jurisdiction.
(e) Officers involved in a pursuit should not attempt to pass other units unless the situation
indicates otherwise or they are requested to
do so by the primary unit.

App. 79
307.3.6 TACTICS/PROCEDURES FOR UNITS NOT
INVOLVED IN THE PURSUIT
Officers are authorized to use emergency equipment at
intersections along the pursuit path to clear intersections of vehicular and pedestrian traffic to protect the
public. Officers should consider remaining in their assigned area and should not become involved with the
pursuit unless directed otherwise by a supervisor.
All involved units in the pursuit should be the only
units operating under emergency conditions (red light
and siren) unless other units are assigned to the pursuit.
307.3.7 AIRCRAFT ASSISTANCE
Coordination of the pursuit shall not be relinquished
to the air unit unless the pursuing unit or a supervisor
directs that this action be taken. If requested, once the
air unit has established visual contact with the pursued vehicle, it should assume control over the pursuit.
The primary and secondary ground units should consider the participation of aircraft assistance when determining whether to continue the pursuit.
The air unit should report progress of the pursuit and
provide officers and supervisors with details of upcoming traffic congestion, road hazards, or other pertinent
information to evaluate whether or not to continue the
pursuit.

App. 80
307.4 SUPERVISORY CONTROL AND RESPONSIBILITY
It is the policy of this department that available supervisory and management control will be exercised over
all vehicle pursuits involving officers from this department.
The field supervisor of the officer initiating the pursuit,
or if unavailable, the nearest field supervisor will be
responsible for the following:
(a) Upon becoming aware of a pursuit, immediately ascertaining all reasonably available information to continuously assess the situation
and risk factors associated with the pursuit in
order to ensure that the pursuit is conducted
within established department guidelines.
(b) Engaging in the pursuit, when appropriate, to
provide on-scene supervision.
(c) Exercising management and control of the
pursuit even if not engaged in it.
(d) Ensuring that no more than the number of required police units needed are involved in the
pursuit under the guidelines set forth in this
policy.
(e) Directing that the pursuit be terminated if,
in his/her judgment, it is unjustified to continue the pursuit under the guidelines of this
policy.
(f ) Ensuring that aircraft are requested if available.

App. 81
(g) Ensuring that the proper radio channel is being used.
(h) Ensuring the notification and/or coordination
of outside agencies if the pursuit either leaves
or is likely to leave the jurisdiction of this
agency.
(i)

Controlling and managing TPD units when a
pursuit enters another jurisdiction.

(j)

Preparing post-pursuit critique and analysis
of the pursuit for training purposes.

307.4.1 WATCH COMMANDER RESPONSIBILITY
Upon becoming aware that a pursuit has been initiated, the Watch Commander should monitor and continually assess the situation and ensure the pursuit
is conducted within the guidelines and requirements
of this policy. The Watch Commander has the final responsibility for the coordination, control and termination of a vehicle pursuit and shall be in overall
command. In addition, the Watch Commander shall review all pertinent reports related to the arrest, if any.
307.4.2 DIVISION COMMANDER RESPONSIBILITY
After the Sergeant completes his/her review of the pursuit on the Administrative Review form (TPD 705), the
TPD 705 and associated documents shall be forwarded
to the affected Division Commander for review. The Division Commander will complete his/her review and

App. 82
then forward the TPD 705 with the supporting documents to the Patrol Coordinator.
307.5

COMMUNICATIONS

If the pursuit is confined within the City limits, radio
communications will be conducted on the primary
channel unless instructed otherwise by a supervisor or
communications dispatcher. If the pursuit leaves the
jurisdiction of this department or such is imminent, involved units should, whenever available, switch radio
communications to an emergency channel most accessible by participating agencies and units.
307.5.1 COMMUNICATION CENTER RESPONSIBILITIES
Upon notification that a pursuit has been initiated,
Communications will:
(a) Coordinate pursuit communications of the involved units and personnel.
(b) Notify and coordinate with other involved or
affected agencies as practicable.
(c) Ensure that a field supervisor is notified of the
pursuit.
(d) Assign an incident number and log all pursuit
activities.
(e) Broadcast pursuit updates as well as other
pertinent information as necessary.

App. 83
(f ) Notify the Watch Commander as soon as practicable.
(g) Keep the designated supervisor and the
Watch Commander informed of all assisting
units leaving the City.
(h) Immediately notify Torrance units whenever
they are advised of another jurisdiction in
pursuit entering the City.
307.5.2

LOSS OF PURSUED VEHICLE

When the pursued vehicle is lost, the primary unit
should broadcast pertinent information to assist other
units in locating suspects. The primary unit will be responsible for coordinating any further search for either
the pursued vehicle or suspects fleeing on foot.
307.6 INTER-JURISDICTIONAL CONSIDERATIONS
When a pursuit enters another agency’s jurisdiction,
the primary officer or supervisor, taking into consideration distance traveled, unfamiliarity with the area
and other pertinent facts, should determine whether to
request the other agency to assume the pursuit. Unless
entry into another jurisdiction is expected to be brief,
it is generally recommended that the primary officer or
supervisor ensure that notification is provided to each
outside jurisdiction into which the pursuit is reasonably expected to enter, regardless of whether such jurisdiction is expected to assist.

App. 84
307.6.1 ASSUMPTION OF PURSUIT BY ANOTHER
AGENCY
Units originally involved will discontinue the pursuit
when advised that another agency has assumed the
pursuit and assistance of the Torrance Police Department is no longer needed. Upon discontinuing the pursuit, the primary unit may proceed upon request, with
or at the direction of a supervisor, to the termination
point to assist in the investigation.
The role and responsibilities of officers at the termination of a pursuit initiated by this department shall be
coordinated with appropriate consideration of the
units from the agency assuming the pursuit.
Notification of a pursuit in progress should not be construed as a request to join the pursuit. Requests to or
from another agency to assume a pursuit should be
specific. Because of communication limitations between local agencies and CHP units, a request for CHP
assistance will mean that they will assume responsibilities for the pursuit. For the same reasons, when a
pursuit leaves the freeway and a request for assistance
is made to this department, the CHP should relinquish
control.
307.6.2 PURSUITS EXTENDING INTO THIS JURISDICTION
The agency that initiates a pursuit shall be responsible
for conducting the pursuit. Units from this department
should not join a pursuit unless specifically requested
to do so by the agency whose officers are in pursuit.

App. 85
The exception to this is when a single unit from the
initiating agency is in pursuit. Under this circumstance, a unit from this department may join the pursuit until sufficient units from the initiating agency
join the pursuit. No more than two units may join the
pursuit unless authorized by the supervisor or the
Watch Commander.
When a request is made for this department to assist
or take over a pursuit from another agency that has
entered this jurisdiction, the supervisor should consider these additional following factors:
(a) Ability to maintain the pursuit
(b) Circumstances serious enough to continue the
pursuit
(c) Adequate staffing to continue the pursuit
(d) The public’s safety within this jurisdiction
(e) Safety of the pursuing officers
As soon as practicable, a supervisor or the Watch Commander should review a request for assistance from
another agency. The Watch Commander or supervisor,
after consideration of the above factors, may decline to
assist in, or assume the other agency’s pursuit.
Assistance to a pursuing allied agency by officers of
this department will terminate at the City limits provided that the pursuing officers have sufficient assistance from other sources. Ongoing participation from
this department may continue only until sufficient assistance is present.

App. 86
In the event that a pursuit from another agency terminates within this jurisdiction, officers shall provide appropriate assistance to officers from the allied agency
including, but not limited to, scene control, coordination and completion of supplemental reports and any
other assistance requested or needed.
307.7

PURSUIT INTERVENTION

Pursuit intervention is an attempt to terminate the
ability of a suspect to continue to flee in a motor vehicle
through tactical application of technology, blocking,
boxing, PIT (Precision Intervention Technique), legal
intervention or roadblock procedures. In this context,
legal intervention shall be construed to mean maneuvering the police unit into contact with the pursued vehicle to mechanically disable or forcibly position it such
that further flight is not possible or practicable.
307.7.1

WHEN USE IS AUTHORIZED

Whenever possible, a supervisor’s permission should
be obtained before intervention is attempted. In deciding whether to use intervention tactics, officers/supervisors should balance the risks of allowing the pursuit
to continue with the potential hazards arising from the
use of each tactic to the public, the officers and persons
in or on the pursued vehicle. With these risks in mind,
the decision to use any intervention tactic should be
reasonable in light of the circumstances confronting
the officer at the time of the decision.

App. 87
It is imperative that officers act within the bounds of
legality, good judgment and accepted practices.
307.7.2

DEFINITIONS

Blocking or vehicle intercept – A slow-speed coordinated maneuver where two or more patrol vehicles
simultaneously intercept and block the movement of a
suspect vehicle, the driver of which may be unaware of
the impending enforcement stop, with the goal of containment and preventing a pursuit. Blocking is not a
moving or stationary road block.
Boxing-in – A tactic designed to stop a violator’s vehicle by surrounding it with law enforcement vehicles
and then slowing all vehicles to a stop.
Precision Intervention Technique (PIT) – A lowspeed maneuver designed to cause the suspect vehicle
to spin out and terminate the pursuit.
Legal Intervention – The deliberate act of impacting
a violator’s vehicle with another vehicle to functionally
damage or otherwise force the violator’s vehicle to stop.
Roadblocks – A tactic designed to stop a violator’s vehicle by intentionally placing an emergency vehicle or
other immovable object in the path of the violator’s vehicle.
307.7.3

USE OF FIREARMS

The use of firearms to disable a pursued vehicle is
not generally an effective tactic and involves all the

App. 88
dangers associated with discharging firearms. Officers
should not utilize firearms during an ongoing pursuit
unless the conditions and circumstances dictate that
such use reasonably appears necessary to protect life.
Nothing in this section shall be construed to prohibit
any officer from using a firearm to stop a suspect from
using a vehicle as a deadly weapon.
307.7.4

INTERVENTION STANDARDS

Any pursuit intervention tactic, depending upon the
conditions and circumstances under which it is used,
may present dangers to the officers, the public or anyone in or on the vehicle being pursued. Certain applications of intervention tactics may be construed to be
a use of deadly force and subject to the requirements
for such use. Officers shall consider these facts and requirements prior to deciding how, when, where and if
an intervention tactic should be employed.
(a) Blocking or vehicle intercept should only be
considered in cases involving felony suspects
or impaired drivers who pose a threat to public safety when officers reasonably believe
that attempting a conventional enforcement
stop will likely result in the driver attempting
to flee in the vehicle. Because of the potential
risks involved, this technique should only be
employed by officers who have received training in such tactics after giving consideration
to the following:
1.

The need to immediately stop the suspect vehicle or prevent it from leaving

App. 89
substantially outweighs the risks of injury or death to occupants of the suspect
vehicle, officers, or other members of the
public.
2.

All other reasonable intervention techniques have failed or reasonably appear
ineffective.

3.

Employing the blocking maneuver does
not unreasonably increase the risk to officer safety.

4.

The target vehicle is stopped or traveling
at a low speed.

5.

At no time should civilian vehicles be
used to deploy this technique.

(b) Only those officers trained in the use of the
Precision Intervention Technique (PIT) will
be authorized to use this procedure. Use of the
PIT should be considered based on the circumstances and conditions presented at the time,
including the potential for risk of injury to officers, the public and occupants of the pursued
vehicle, as well as the following:
1.

The officer must believe that the continued movement of the pursued vehicle
would place uninvolved persons in imminent danger of great bodily harm or
death.

2.

The apparent risk of harm to uninvolved
persons is great and outweighs the apparent risk of harm involved in using intervention.

App. 90
3.

Other reasonable means of apprehension
have been considered, such as: continue
to follow, calling for air support, setting
up roadblocks and calling for other
agency assistance.

4.

Forcible stops should not be attempted
when the pursued vehicle is traveling in
excess of 35 MPH.

5.

An uninvolved motorist-occupied vehicle
shall never be used to forcibly stop a pursued vehicle.

6.

Whenever possible, a supervisor’s permission should be obtained before intervention is attempted.

7.

Intervention should not be used when the
pursued vehicle is a pickup truck or similar type vehicle when subjects are occupying the open bed portion, unless deadly
force would be justified.

8.

Intervention of motorcycles shall not be
attempted unless deadly force would be
justified.

9.

Intervention is a use of force and therefore shall comply with the Department’s
Use of Force policy.

(c) As with all intervention techniques, pursuing
officers should obtain supervisor approval,
when practical, before attempting to box a
suspect vehicle during a pursuit. The use of
such a technique must be carefully coordinated with all involved units, taking into

App. 91
consideration the circumstances and conditions presented at the time as well as the potential risk of injury to officers, the public and
occupants of the pursued vehicle.
(d) Because roadblocks involve a potential for serious injury or death to occupants of the pursued vehicle if the suspect does not stop, the
intentional placement of roadblocks in the direct path of a pursued vehicle is generally discouraged and should not be deployed without
prior approval of a supervisor and only then
under extraordinary conditions when all
other reasonable intervention techniques
have failed or reasonably appear ineffective
and the need to immediately stop the pursued
vehicle substantially outweighs the risks of
injury or death to occupants of the pursued
vehicle, officers or other members of the public.
(e) If either the suspect vehicle or the pursuing
unit loses control after the intervention and
collides with property or vehicles, a Traffic
Collision Report (TPD 554) would be necessary to cover that collision only. If the collision
causes serious injuries, the California Highway Patrol should be requested to handle the
investigation.
307.7.5

CAPTURE OF SUSPECTS

Proper self-discipline and sound professional judgment
are the keys to a successful conclusion of a pursuit
and apprehension of evading suspects. The designated

App. 92
supervisor shall respond immediately to the termination point of the pursuit and is responsible for controlling police actions at the scene and ensuring adherence
to Department policy. Officers shall use only that
amount of force, which reasonably appears necessary
under the circumstances, to properly perform their
lawful duties.
Unless relieved by a supervisor, the primary officer
should coordinate efforts to apprehend the suspects
following the pursuit. Officers should consider safety of
the public and the involved officers when formulating
plans to contain and capture the suspects.
307.8

REPORTING REQUIREMENTS

The following reports should be completed upon conclusion of all pursuits:
(a) The primary officer should complete appropriate crime/arrest reports.
1.

Date and time of pursuit

2.

Length of pursuit

3.

Involved units and officers

4.

Initial reason for pursuit

5.

Starting and termination points

6.

Disposition (arrest, citation), including
arrestee information if applicable

7.

Injuries and/or property damage

8.

Medical treatment

9.

Name of supervisor at scene

App. 93
(b) The Field Sergeant shall ensure that an Allied
Agency Vehicle Pursuit Report (CHP 187A) is
filed with the CHP no later than 30 days following the pursuit (Vehicle Code § 14602.1).
The Field Sergeant shall forward the report to
the Watch Commander for review and distribution.
(c) After first obtaining the available information, a field supervisor shall promptly complete an Administrative Review form (TPD
705), and submit it to his/her Division Commander. See attachment: TPD 705 Administrative Review Form.pdf
(d) The designated supervisor shall ensure the
Administrative Review form (TPD 705) is
completed if intervention occurs and/or force
is used to take the suspect into custody. Intervention is a use of force and should not be documented on a Traffic Collision Report (TPD
554).
(e) Any unintentional collisions involving police
units shall be reported on the appropriate
Traffic Collision Report and investigated by
CHP if there are any serious injuries.
307.8.1
TIES

SUPERVISOR REPORT RESPONSIBILI-

The Division Commander shall review each pursuit by
any personnel within his/her command to ensure compliance with this policy and to address any training
issues. The original Administrative Review form (TPD

App. 94
705) and related reports shall be forwarded to the Patrol Coordinator for statistical purposes.
The employee’s Bureau Commander shall review all of
the documentation related to the pursuit and determine if the incident was within policy and tactically
sound.
The Deputy Chief of Police shall make the final disposition in the case and return his/her findings to the
Personnel Division for appropriate notification of findings to the concerned personnel.
307.8.2 REGULAR AND PERIODIC PURSUIT
TRAINING
In addition to initial and supplementary Police Officer
Standard Training (POST) training on pursuits required by Penal Code § 13519.8, all sworn members of
this department will participate no less than annually
in regular and periodic department training addressing this policy and the importance of vehicle safety and
protecting the public at all times, including a recognition of the need to balance the known offense and the
need for immediate capture against the risks to officers
and others Vehicle Code § 17004.7(d)).
307.8.3

POLICY REVIEW

Each sworn member of this department shall certify in
writing that they have received, read and understand
this policy initially and upon any amendments. The
POST attestation form, or an equivalent form, may be

App. 95
used to document the compliance and should be retained in the member’s training file.
307.9 APPLICATION OF VEHICLE PURSUIT
POLICY
This policy is expressly written and adopted pursuant
to the provisions of Vehicle Code § 17004.7, with additional input from the POST Vehicle Pursuit Guidelines.

